Nos. 19-1257 & 19-1258

IN THE
Supreme Court of the United States

Mark BRNOVICH,
ATTORNEY GENERAL OF ARIZONA, ET AL.,
Petitioners,
Ve
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
We
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I certify that three copies of the Brief
for Private Petitioners, in Brnovich v. Democratic National Committee, No. 19-1257,
and Arizona Republican Party v. Democratic National Committee, No. 19-1258, were

served via overnight mail on all parties required:

Joseph Andrew Kanefield Jessica Ring Amunson

ARIZONA ATTORNEY GENERAL'S OFFICE JENNER & BLOCK LLP

2005 N. Central Ave 1099 New York Avenue NW, Suite 900
Phoenix, AZ 85004 Washington, DC 20001

(602) 542-8017 (202) 639-6023
allyson.flanagan@azag.gov JAmunson@jenner.com

Counsel for Mark Brnovich, et. al. Counsel for Katie Hobbs, Arizona

Secretary of State
Marc Erik Elias

PERKINS COIE, LLP

700 13th St, NW, Suite 800
Washington, DC 20005-3960
(202) 434-1609
melias@perkinscoie.com

Counsel for Democratic National
Committee, et. al.

I declare under penalty of perjury that the foregoing is true and correct.

Date: November 30, 2020

 
